                               Report Template Update = 04-30-05_rev.15




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 SUSPECTED MEDICAID FRAUD 

        REFERRALS





                    Daniel R. Levinson

                     Inspector General 


                      January 2007

                     OEI-07-04-00181

                                                           Report Template Update = 04-30-05_rev.15




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                           Report Template Update = 04-30-05_rev.15




F   I N D I N G        S
Δ       E X E C U T I V E                   S U M M A R Y            



                      OBJECTIVES
                      To determine (1) the sources and number of suspected fraud referrals
                      that Medicaid Fraud Control Units (MFCU) reported receiving and
                      (2) the number of these referrals that they accepted for investigation.


                      BACKGROUND
                      Recent events, such as the passage of the Deficit Reduction Act of 2005,
                      have focused attention on Medicaid program integrity. Within most
                      States, two agencies share primary responsibility for protecting the
                      integrity of the Medicaid program. The State Medicaid agency is
                      responsible for ensuring proper payment, recovering misspent funds,
                      identifying suspected Medicaid fraud, conducting a preliminary review
                      to determine the extent of potential fraud, and making referrals to its
                      MFCU. The MFCU is responsible for reviewing the referrals it receives
                      from the State Medicaid agency and other sources to determine if the
                      issues involved merit criminal and/or civil investigation.

                      The Office of Inspector General (OIG) requested that MFCUs provide
                      data on the number of suspected fraud referrals received and the
                      number accepted for investigation from the State Medicaid agencies and
                      from other sources for the period July 2002 through June 2005.


                      FINDINGS
                      Medicaid Fraud Control Units reported receiving a total of
                      13,733 suspected fraud referrals over a 3-year period, of which
                      29 percent came from State Medicaid agencies. Eighty-four percent of
                      MFCUs providing information reported receiving less than half of all
                      suspected fraud referrals from their respective State Medicaid agencies.
                      Referrals from State Medicaid agencies ranged from 0 to 215 for any
                      1-year period and from 7 to 590 for the 3-year study period (July 2002
                      through June 2005).

                      Overall, State Medicaid agency contributions to total MFCU-accepted
                      referrals remained constant over a 3-year period, but individual States
                      fluctuated widely. The percentage contribution of MFCU-accepted
                      referrals from State Medicaid agencies remained constant during the
                      3-year study period at 33 percent, yet the contributions from individual
                      State Medicaid agencies to their respective MFCUs fluctuated greatly.
                      Fifty-nine percent (26/44) of MFCUs reported accepting fewer referrals
                      from their respective State Medicaid agency in the last year of our

    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                  i
                                                        Report Template Update = 04-30-05_rev.15




E X E C U T I V E              S U     M M A R Y


                   review compared to the average number of referrals over all 3 years.
                   This indicates that increases in accepted referrals are concentrated in
                   less than half of the States. One State Medicaid agency contributed to
                   67 percent of the increase in MFCU-accepted referrals over the 3-year
                   study period.


                   RECOMMENDATION
                   We recommended in our November 1996 report “Surveillance and
                   Utilization Review Subsystems’ Case Referrals to Medicaid Fraud
                   Control Units,” OEI-07-95-00030, that the Centers for
                   Medicare & Medicaid Services (CMS) establish fraud referral
                   performance standards for State Medicaid agencies. While CMS
                   concurred with this recommendation, it has not established these
                   performance standards.

                   In the absence of CMS criteria specific to the referral of suspected fraud
                   issues, we are unable to determine the adequacy of State Medicaid
                   agencies’ performance. Such criteria would assist State Medicaid
                   agencies by providing specifics concerning the development and referral
                   of suspected fraud issues to MFCUs. In addition, such criteria would
                   help ensure that the content and manner of referring suspected fraud
                   issues is consistent across States. However, some reported results, such
                   as no fraud referrals for an entire year or only one accepted referral over
                   3 years, do not appear adequate given the State Medicaid agencies’
                   access to Medicaid claims information and their designated role to
                   identify and refer suspected fraud issues to MFCUs.

                   Given the findings in our report and our inability to assess the adequacy
                   of State Medicaid agency performance, due to the absence of referral
                   criteria, we reiterate this recommendation.


                   AGENCY COMMENTS
                   CMS concurred with our recommendation to work towards the
                   establishment of fraud referral performance standards. CMS indicated
                   that it is in the process of engaging a strategic contractor to conduct a
                   comprehensive State program integrity assessment. CMS intends to
                   consult with OIG regarding arriving at a commonly accepted definition
                   of what constitutes an accepted referral.




 OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                              ii
                                                        Report Template Update = 04-30-05_rev.15




E X E C U T I V E              S U     M M A R Y 





                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   CMS comments to the report were based on numbers contained in the
                   draft report. However, one State advised OIG after reviewing the draft
                   report that it had provided OIG incorrect information in response to the
                   initial data request, and it was unable to provide information that
                   completely responded to our request. The State was eliminated from
                   our analyses. Although we still find that the number of referrals does
                   increase in each year of our study, the increase is less dramatic than
                   indicated in the draft report and the percentage of referrals coming from
                   State agencies drops in the last year when compared to the prior year.




 OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                             iii
                                                                      Report Template Update = 04-30-05_rev.15




Δ   T A B L E          O F           C O N T E N T S                               




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 6

                   MFCUs reported receiving 13,733 suspected fraud referrals over 

                   a 3-year period, of which 29 percent are from State Medicaid 

                   agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                   Overall, State Medicaid agency contributions to total 

                   MFCU-accepted referrals remained constant over a 3-year period, 

                   but individual States fluctuated widely . . . . . . . . . . . . . . . . . . . . . . 7 




         RECOMMENDATION ....................................... 9




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                   A: 	MFCU–Reported Referral Data From State 

                       Medicaid Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                   B: 	MFCU–Reported Referral Data From Other Sources . . . . . . . 13 


                   C: 	Comparison of Accepted Referral and Contribution Rates . . . 14 


                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                                                             Report Template Update = 04-30-05_rev.15




I N T R O D        U C T      I O N
Δ    I N T R O D U C T I O N                             



                    OBJECTIVES
                    To determine (1) the sources and number of suspected fraud referrals
                    that Medicaid Fraud Control Units (MFCU) reported receiving and
                    (2) the number of these referrals that they accepted for investigation.


                    BACKGROUND
                    The Deficit Reduction Act of 2005 created a new Medicaid Integrity
                    Program (MIP) and provided additional funding for the Secretary of the
                    Department of Health and Human Services (HHS) to conduct Medicaid
                    program integrity activities.1 The MIP funding will assist the Centers
                    for Medicare & Medicaid Services (CMS) in these activities. As part of
                    this funding, CMS will hire approximately 100 auditors to conduct
                    Federal reviews of State Medicaid agency programs. In addition,
                    funding received pursuant to the Deficit Reduction Act of 2005 will
                    assist the Office of Inspector General (OIG) in its oversight of Medicaid
                    integrity efforts.

                    Within most States, two agencies share primary responsibility for
                    protecting the integrity of the Medicaid program. The State Medicaid
                    agency is responsible for ensuring proper payment, recovering misspent
                    funds, identifying suspected Medicaid fraud, conducting a preliminary
                    review to determine the extent of potential fraud, and making referrals
                    to its MFCU. The MFCU is responsible for reviewing the referrals it
                    receives from the State Medicaid agency and other sources to determine
                    if the issues involved merit criminal and/or civil investigation. The
                    MFCU would then either accept the referral for investigation or decline
                    the referral. In situations where the referral is declined, the referring
                    agency can initiate appropriate administrative actions.
                    State Medicaid Agency Responsibilities
                    The State Medicaid agency must conduct preliminary investigations
                    when questionable practices or complaints of suspected Medicaid fraud
                    are identified or received.2




                    1 Public Law 109-171. 


                    2 42 CFR § 455.14. 



 OEI-07-04-00181    SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                   1
                                                                      Report Template Update = 04-30-05_rev.15




I N T R O D        U C T       I O N


                    When a preliminary investigation gives the State Medicaid agency
                    reason to believe that an incident of fraud has occurred, it must refer
                    the matter to the MFCU for investigation.3
                    State Medicaid agencies must have certain information processing
                    systems, including a Medicaid Management Information System
                    (MMIS), to accomplish the tasks for which they are responsible.4 A vital
                    part of the MMIS is the Surveillance and Utilization Review Subsystem
                    (S/URS). Two of the primary functions of the S/URS are: (1) to develop
                    a comprehensive statistical profile of health care delivery and
                    utilization patterns by providers and recipients, and (2) to investigate
                    and reveal misutilization of the State’s Medicaid program by
                    participants and promote correction.5 Some State Medicaid agencies
                    exclusively use staff within the S/URS unit to conduct analyses, while
                    others have established comprehensive program integrity or Inspector
                    General units to oversee these functions.
                    Medicaid Fraud Control Unit Responsibilities
                    MFCUs are responsible for conducting statewide programs for
                    investigating and prosecuting violations of all applicable State laws
                    regarding any and all aspects of fraud in connection with any aspect of
                    the provision of medical assistance and the activities of providers of
                    such assistance under the State Medicaid plan.6 Forty-eight States and
                    the District of Columbia (hereinafter referred to collectively as States)
                    have established MFCUs.7
                    MFCUs are responsible for conducting criminal and/or civil
                    investigations of suspected Medicaid fraud and are considered
                    integrated law enforcement components. MFCUs must be single
                    identifiable entities of the State government, composed of investigators,
                    attorneys, and auditors.8 Most MFCUs are located within the State



                    3 42 CFR § 455.15(a)(1) and 42 CFR § 433.116(h). In States without a MFCU, the State
                     Medicaid agency must conduct a full investigation or refer the fraud issue to the
                     appropriate law enforcement agency.
                    4 42 U.S.C. §§ 1903(a)(3) and 1903(r), 42 CFR § 433.110 and Part 11 of the State Medicaid
                     Manual.
                    5 Section 11335 of the State Medicaid Manual.
                    6 42 U.S.C. § 1396b(q)(3) and 42 CFR § 1007.11.

                    7 The HHS Inspector General granted North Dakota and Idaho waivers of MFCU

                     requirements; thus the State Medicaid agency in each of these States is responsible for
                     conducting investigations and referring cases to State and local prosecutors.
                    8 42 U.S.C. § 1396b(q)(6).


 OEI-07-04-00181    SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                                2
                                                                  Report Template Update = 04-30-05_rev.15




I N T R O D        U C T      I O N


                    Attorney General’s office. OIG has been delegated responsibility for
                    MFCU oversight and certifying and recertifying that each MFCU meets
                    selected Federal requirements.9
                    Section 1902(a)(61) of the Social Security Act, as amended by
                    section 13625 of the Omnibus Budget Reconciliation Act of 1993,
                    required OIG to develop performance standards for assessing MFCUs.
                    These standards became effective on September 26, 1994. One of these
                    performance standards requires MFCUs to ensure they maintain an
                    adequate workload of referrals from State Medicaid agencies and other
                    sources (e.g., licensure authorities, insurance departments, providers,
                    and private citizens).
                    Previous Studies
                    Since 1989, OIG has issued three reports addressing the referral of
                    suspected fraud issues from State Medicaid agencies to MFCUs.10
                    These reports identified variations among the State Medicaid agencies
                    in their relationships with and methods of referral to MFCUs.
                    Additionally, each of these studies identified deficiencies in the referral
                    process, such as a lack of communication between State Medicaid
                    agencies and MFCUs and a lack of understanding of roles and
                    responsibilities.

                    The Government Accountability Office (GAO) has also conducted a
                    number of studies that identified vulnerabilities in the Medicaid
                    program and in State Medicaid agencies’ efforts to detect and refer
                    suspected fraud issues to MFCUs. In a 2004 report, GAO noted that
                    CMS’s efforts to ensure State Medicaid agency compliance might be
                    “. . . disproportionately small relative to the risk of serious financial
                    loss.”11


                    METHODOLOGY
                    We requested suspected fraud referral data from both State Medicaid
                    agencies and MFCUs in the 48 States that had MFCUs during the


                    9 42 U.S.C. § 1396b(q)(7).

                    10 “Referrals by Medicaid agencies to Fraud Control Units,” OAI-03-88-00170,

                      October 1989; “Surveillance and Utilization Review Subsystems’ Case Referrals to
                      Medicaid Fraud Control Units,” OEI-07-95-00030, November 1996; “Medicaid Post
                      Payment Safeguards,” OEI-05-99-00072, July 2000.
                    11 “State and Federal Efforts to Prevent and Detect Improper Payments,” Government

                      Accountability Office Report to the Chairman, Committee on Finance, U.S. Senate,
                      GAO 04-707, July 2004.

 OEI-07-04-00181    SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                         3
                                                         Report Template Update = 04-30-05_rev.15




I N T R O D        U C T     I O N


                    3-year period July 2002 through June 2005. Idaho and North Dakota
                    have not established MFCUs due to waivers and Nebraska established
                    its MFCU toward the end of our study period. Therefore, these States
                    were excluded from the study. The Kentucky, New York, Oregon, and
                    Utah MFCUs responded to our request; however, the data provided was
                    not sufficiently complete for comparable analysis. As a result, the
                    responses from these MFCUs and the corresponding State Medicaid
                    agencies were excluded from this report. This study reflects responses
                    from the remaining 44 States with MFCUs.

                    We asked State Medicaid agencies to provide the number of suspected
                    fraud referrals made to MFCUs; the number of those accepted for
                    investigation; the number of those declined for investigation, thus
                    allowing the State Medicaid agency to initiate administrative actions, as
                    appropriate; and the number of those for which no investigative decision
                    had been made by their MFCUs. We asked MFCUs to provide the
                    number of suspected fraud referrals they received from State Medicaid
                    agencies and other sources; the number of those accepted for
                    investigation; the number of those declined for investigation, thus
                    allowing another agency to initiate appropriate administrative action,
                    as appropriate; and the number of those for which no investigative
                    decision had been made. We asked the MFCUs for information on
                    referrals received from State Medicaid agencies as well as those from all
                    other sources for the 3-year period July 2002 through June 2005. We
                    also requested the MFCUs to provide the general reasons that referrals
                    were not accepted for criminal and/or civil investigation.

                    In our requests to State Medicaid agencies and MFCUs, we did not
                    define the terms referral, accept, decline, and no decision made for
                    respondents. Although they are not usually defined, these terms are
                    used commonly in policies and procedures governing the work for State
                    Medicaid agencies and MFCUs. We provided respondents the ability to
                    contact us if they had any questions about the information we
                    requested.

                    The common understanding of each of the terms is as follows:

                    o	 Referral – a matter that an outside entity brings to the attention of
                       a MFCU regarding suspected Medicaid fraud. “Referrals” can range
                       from something that is well researched and developed to simply an
                       article mentioning potential wrongdoing clipped from the
                       newspaper.



 OEI-07-04-00181    SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                               4
                                                         Report Template Update = 04-30-05_rev.15




I N T R O D        U C T     I O N


                    o	 Accept – matters that the MFCU retains for further investigation.
                       According to internal policy, some MFCUs accept all referrals from
                       all sources. Most MFCUs, however, accept for investigation only
                       those matters that meet a certain threshold (e.g., indications that a
                       crime had been committed, dollar threshold for prosecution).

                    o	 Decline – matters that the MFCU does not retain for further
                       investigation, allowing another entity to initiate administrative
                       actions, as appropriate. The term decline should not be confused
                       with a declination on the part of the prosecutor to take a matter to
                       court.

                    o	 No decision made – matters that, at the time of our inquiry, the
                       MFCU had not yet made a determination of whether to accept or
                       decline.
                    Limitations
                    We did not review individual preliminary investigations that State
                    Medicaid agencies conducted for completeness or appropriateness. We
                    also did not evaluate processes MFCUs used or results achieved as part
                    of their acceptance, declination, and/or development of fraud issues for a
                    criminal and/or civil investigation. We collected information from State
                    Medicaid agencies and MFCUs. We elected to report the referral
                    numbers from MFCUs, because they receive referrals from State
                    Medicaid agencies and other sources, providing a more comprehensive
                    representation of their investigative workload.

                    Some MFCU directors stated that they received suspected fraud
                    referrals on the same matter from multiple sources. In such cases, the
                    referral was credited to the entity that first referred the matter to the
                    MFCU. Therefore, State Medicaid agencies could have referred
                    additional suspected fraud issues that the MFCU would not have
                    counted as a referral from them, when these issues had previously been
                    received from other sources.

                    Data presented in the report are the raw referral statistics that MFCUs
                    provided and are not adjusted for such factors as State Medicaid agency
                    or MFCU operating budgets, State Medicaid program expenditures,
                    beneficiary and provider populations, or claims volume.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.


 OEI-07-04-00181    SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                               5
                                                                     Report Template Update = 04-30-05_rev.15




 Δ       F I N D I N G S

Medicaid Fraud Control Units reported receiving              From July 2002 through June 2005,
a total of 13,733 suspected fraud referrals over a           MFCUs reported receiving
    3-year period, of which 29 percent came from             4,034 referrals from State Medicaid
                                                             agencies and 9,699 referrals from
                         State Medicaid agencies
                                                             all other sources. State Medicaid
                       agency referrals accounted for 29 percent of all MFCU-reported
                       referrals for the 3-year study period.12 Table 1 provides referral data for
                       each of the years in our review. Previous reports examining Medicaid
                       suspected fraud referrals found that State Medicaid agency contribution
                       to total referrals was 35 percent in 1985 (36 States reporting) and
                       25 percent in 1994 (45 States reporting).13

                          Table 1: MFCU-Reported Fraud Referrals

                                               Referrals From                              State Medicaid
                                                                    Referrals From
                            Review Period      State Medicaid                           Agency Percent of
                                                                    Other Sources
                                                     Agencies                              Total Referrals

                                2002–2003                1,161                3,040                      28
                                2003–2004                1,403                3,045                      32
                                2004–2005                1,470                3,614                      29
                                      Total                 4,034             9,699                      29
                          Source: Office of Inspector General analysis of MFCU data, 2006.


                       For the 3-year period from July 2002 to June 2005, the number of
                       referrals that an individual MFCU reported receiving from a State
                       Medicaid agency ranged from 0 to 215 for any 1-year period and from
                       7 to 590 for all 3 years. (See Appendix A.) MFCU-reported referrals
                       from other sources ranged from 0 to 379 in any 1 year and from 6 to
                       859 for all 3 years. (See Appendix B.) Eighty four percent (37/44) of
                       MFCUs reported receiving less than half of all referrals from their
                       respective State Medicaid agencies.

                       MFCU-reported referrals from States varied greatly, but clustered to
                       low and high ends. Twenty-one MFCUs reported receiving fewer than
                       12 referrals each from State Medicaid agencies (averaging less than
                       1 referral per month) in the last year of our study. These States were



                       12 State Medicaid agencies reported sending 3,930 suspected fraud referrals to MFCUs over
                         the 3-year period, while MFCUs reported receiving 4,034 suspected fraud referrals from
                         State Medicaid agencies over the same period.
                       13 “Results of Certified Fraud Control Units,” GAO/HRD-87-12FS, October 1986, and

                         “Surveillance and Utilization Review Subsystems’ Case Referrals to Medicaid Fraud
                         Control Units,” OEI-07-95-00030, November 1996.

     OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                                  6
                                                           Report Template Update = 04-30-05_rev.15




F   I N D I N G        S


                      rural, urban, small, large, from all regions of the country, and included
                      Arkansas (2 referrals), Connecticut (2 referrals), South Dakota
                      (4 referrals), Virginia (8 referrals), and Wyoming (11 referrals). Only
                      3 MFCUs reported receiving over 100 referrals from State Medicaid
                      agencies in the last year of our study: Florida (215 referrals), Arizona
                      (192 referrals), and Texas (180 referrals). During the same period,
                      California, the largest Medicaid program based on enrollment, reported
                      79 referrals from the State Medicaid agency.

                      While referral data in Appendix A indicate an increase in the number of
                      suspected fraud referrals overall from 1,161 in the 2002–2003 review
                      period to 1,470 in the 2004–2005 review period, only 1 State Medicaid
                      agency significantly contributed to this upward trend. During the
                      period July 2002 through June 2005, Florida’s reported referrals
                      increased from 33 to 82 to 215 for each 12-month period, accounting for
                      59 percent (182/309) of the difference between the 2002–2003 and
                      2004–2005 reported number of referrals. In fact, more than half
                      (24/44) of MFCUs actually reported receiving fewer referrals from their
                      respective State Medicaid agency in the last year of our review
                      compared to the average number of referrals over all 3 years. For
                      18 States, MFCUs also reported fewer referrals from other sources in
                      the last year, compared to the 3-year average.



                                                             Although the total number of
Overall, State Medicaid agency contributions to
                                                             referrals MFCUs accepted from
        total MFCU-accepted referrals remained               both State Medicaid agencies and
  constant over a 3-year period, but individual              other sources increased, the
                        States fluctuated widely             overall percentage contribution of
                                                             accepted referrals that came from
                      State Medicaid agencies remained relatively constant during our 3-year
                      study period. (See Table 2 on the next page.) In contrast, the
                      contributions of individual State Medicaid agencies to their respective
                      MFCUs fluctuated greatly. Fifty-nine percent (26/44) of MFCUs
                      reported accepting fewer referrals from their respective State Medicaid
                      agency in the last year of our review, while 41 percent (18/44) reported
                      an increase compared to the average number of referrals over all
                      3 years. This indicates that increases in accepted referrals are
                      concentrated in less than half of the States.




    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                 7
                                                                    Report Template Update = 04-30-05_rev.15




F   I N D I N G        S 





                      Table 2: MFCU - Reported Accepted Fraud Referrals

                                           Referrals Accepted             Referrals      State Medicaid Agency
                        Review Period     From State Medicaid       Accepted From      Percent of Total Referrals
                                                     Agencies        Other Sources                      Accepted

                             2002–2003                      748               1,694                              31
                             2003–2004                      964               1,780                              35
                             2004–2005                     1,020              2,164                              32
                                  Total                    2,732               5,638                             33
                      Source: Office of Inspector General analysis of MFCU data, 2006.

                      Eight MFCUs accepted all referrals during our 3-year study period.
                      (See Appendix C.) As an example, the Florida MFCU saw an increase
                      in the number of referrals and accepted referrals by 182 from the first to
                      last year of our study. As a result, Florida alone accounted for
                      67 percent (182/272) of increases in accepted referrals during this 3-year
                      period.

                      Twenty-six MFCUs reported accepting, on average, no more than
                      one referral a month from their respective State Medicaid agencies.
                      MFCU-reported accepted referrals from State Medicaid agencies ranged
                      from 0 to 215 for any 1 year and from 1 to 330 for all 3 years.
                      (See Appendix A.) MFCU-reported accepted referrals from all other
                      sources ranged from 0 to 372 in any 1 year and from 3 to 766 for all
                      3 years. (See Appendix B).

                      The most frequent reason that MFCUs cited for declining a referral
                      from State Medicaid agencies was that the referral did not contain
                      enough information to establish that a Medicaid crime had been
                      committed (33 MFCUs).14 Other reasons frequently cited include
                      referral to another agency for administrative action (19 MFCUs) and
                      the need for additional development by the respective State Medicaid
                      agency (18 MFCUs). Only 50 referrals for the full 3-year period were
                      reported to us as “no decision made,” indicating that nearly all referrals
                      were reviewed and were either accepted for investigation or declined,
                      thus allowing the referring agency to take action it deemed appropriate.




                      14 We recognize that fraud may ultimately be determined only through a judgment by a
                        court of law. MFCUs noted that some referrals did not establish the necessary elements
                        to proceed with a criminal investigation.

    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                             8
                                                           Report Template Update = 04-30-05_rev.15




F   I N D I N G        S
Δ       R E C O M M E N D A T I O N                        


                      We recommended in our November 1996 report “Surveillance and
                      Utilization Review Subsystems’ Case Referrals to Medicaid Fraud
                      Control Units,” OEI-07-95-00030, that CMS establish fraud referral
                      performance standards for State Medicaid agencies. While CMS
                      concurred with this recommendation, it has not established these
                      performance standards.

                      In the absence of CMS performance standards or criteria specific to the
                      referral of suspected fraud issues, we are unable to determine the
                      adequacy of State Medicaid agencies’ performance. Such criteria would
                      assist State Medicaid agencies by providing specifics concerning the
                      development and referral of suspected fraud issues to MFCUs. In
                      addition, such criteria would help ensure that the content and manner
                      of referring suspected fraud issues is consistent across States. However,
                      some reported results, such as no fraud referrals for an entire year or
                      only one accepted referral over 3 years, do not appear adequate given
                      the State Medicaid agencies’ access to Medicaid claims information and
                      their designated role to identify and refer suspected fraud issues to
                      MFCUs.

                      Despite the growth in Medicaid expenditures and the increased focus on
                      Medicaid program integrity, 21 MFCUs reported receiving fewer than
                      12 referrals each from their respective State Medicaid agency in the last
                      year of our study. More than half of MFCUs reported receiving fewer
                      referrals from their respective State Medicaid agency in the last year of
                      our review compared to the average number of referrals over all 3 years.
                      More than half of MFCUs reported receiving an average of no more than
                      one accepted referral per month from their respective State Medicaid
                      agency during the period July 2002 through June 2005.

                      Given the findings in our report and our inability to assess the adequacy
                      of State Medicaid agency performance, due to the absence of referral
                      criteria, we reiterate this recommendation.


                      AGENCY COMMENTS
                      CMS concurred with our recommendation to work towards the
                      establishment of fraud referral performance standards. CMS indicated
                      that it is in the process of engaging a strategic contractor to conduct a
                      comprehensive State program integrity assessment. The contractor will
                      be tasked with determining the measures needed to accurately assess
                      the program integrity performance of State Medicaid agencies and to
                      develop a national database. Once these measures are established,

    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                 9
                                                           Report Template Update = 04-30-05_rev.15




R   E C O        M M E N D A T           I O N


                      CMS can use this information to begin collaborative work in the
                      development of national performance standards. CMS intends to
                      consult with OIG regarding arriving at a commonly accepted definition
                      of what constitutes an accepted referral, since the definition of this term
                      varies widely from State to State. CMS noted that the Deficit Reduction
                      Act of 2005 provides the necessary resources to implement OIG’s
                      longstanding recommendation. CMS comments are included in their
                      entirety in Appendix D.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      CMS comments to the report were based on numbers contained in the
                      draft report. However, after reviewing the draft report, one State
                      advised OIG that it had provided OIG incorrect information in response
                      to the initial data request, and it was unable to provide information that
                      completely responded to our request. The State was eliminated from
                      our analyses and the data presented in the report are adjusted
                      accordingly. Although we still find that the number of referrals does
                      increase in each year of our study, the increase is less dramatic than
                      indicated in the draft report and the percentage of referrals coming from
                      State agencies drops in the last year when compared to the prior year.




    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                10
                                                       Report Template Update = 04-30-05_rev.15




Δ   A P P E N D I X E S                      


                  The information contained in Appendixes A, B, and C is presented in
                  alphabetical order by State. The order is not intended to suggest any
                  ranking of performance for any State Medicaid agency or MFCU.

                  These data do not take into account factors such as State Medicaid
                  agency or MFCU operating budgets, State Medicaid program
                  expenditures, beneficiary and provider populations, or claims volume.

                  Additionally, these data do not reflect the entirety of workloads for
                  either the State Medicaid agencies or MFCUs. State Medicaid agencies
                  pursue overpayment cases in addition to making referrals to MFCUs.
                  MFCUs self-generate work in addition to receiving referrals from State
                  Medicaid agencies and external sources.




OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                            11
                                                                                       Report Template Update = 04-30-05_rev.15




       Δ             A P P E N D I X                      A

                     MFCU-Reported Fraud Referral Data From State Medicaid Agencies*

                           Referrals Received From State                      Referrals Accepted From State
                                                                 Totals                                                  Totals
                                 Medicaid Agency                                     Medicaid Agency
                 State     2002–2003   2003–2004    2004–2005 2002–2005        2002–2003     2003–2004     2004–2005 2002–2005
              Alabama              6          13            7        26                6             9             4        19
                Alaska            34          20           94       148                2             7            13        22
               Arizona           196         202          192       590               59            54            42       155
             Arkansas             59           5            2        66               21             5             2        28
             California          145         163           79       387              104           125            72       301
             Colorado              6          13            7        26                5             8             5        18
          Connecticut             45           5            2        52               26             4             2        32
             Delaware              1           7            7        15                1             7             7        15
 District of Columbia              2           5            5        12                2             4             5        11
                Florida           33          82          215       330               33            82           215       330
               Georgia             8           6           11        25                8             6            11        25
                Hawaii             3           2            2         7                3             2             2         7
                Illinois          47          90           83       220               39            49            55       143
               Indiana            11          30           35        76               11            30            35        76
                   Iowa            1           2           11        14                1             0             4         5
               Kansas             11          21           47        79               11            21            45        77
             Louisiana            10          33           31        74               10            33            31        74
                 Maine             8          14           19        41                8            14            19        41
             Maryland              7          11            9        27                2             8             5        15
      Massachusetts               16           6           10        32               15             5             9        29
              Michigan            24          47           26        97               17            26            18        61
            Minnesota             10           9           13        32                6             6             4        16
           Mississippi            25          11            5        41               16             6             3        25
              Missouri            25          23           20        68               25            23            20        68
              Montana             11           7            9        27                8             6             8        22
               Nevada              4           8            7        19                4             4             2        10
     New Hampshire                 9           6            9        24                6             2             7        15
          New Jersey              15          21           12        48               14            19            10        43
          New Mexico              11           5            6        22               11             5             6        22
       North Carolina             14          12           18        44               14            10            12        36
                   Ohio           60          97           63       220               58            90            58       206
            Oklahoma              70          67           78       215               28            32            32        92
        Pennsylvania              12          24           18        54               12            24            18        54
        Rhode Island               9           6            3        18                8             5             3        16
      South Carolina              14          12           12        38               14            11            11        36
        South Dakota               0           7            4        11                0             1             0         1
           Tennessee              11           5           30        46                6             3             5        14
                 Texas            81         205          180       466               40           135           142       317
              Vermont             17          15            5        37               15            13             4        32
               Virginia           13          11            8        32               12             6             7        25
          Washington              25          13           17        55               25            13            17        55
        West Virginia             22          23           22        67               22            23            22        67
            Wisconsin             28          27           26        81               18            16            17        51
             Wyoming               2          12           11        25                2            12            11        25
                  Total        1,161       1,403        1,470     4,034              748           964         1,020     2,732
Source: MFCU reported data, 2006.

*The Kentucky, New York, Oregon, and Utah MFCUs responded to our request; however, the data provided was not sufficiently complete
for comparable analysis.


               OEI-07-04-00181         SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                                                     12
                                                                                Report Template Update = 04-30-05_rev.15




    Δ           A P P E N D I X                       B
                MFCU-Reported Fraud Referral Data From All Other Sources*

                         Referrals Received From All                         Referrals Accepted From All
                                                                 Totals                                               Totals
                               Other Sources                                        Other Sources
                 State 2002–2003 2003–2004 2004–2005 2002–2005 2002–2003 2003–2004 2004–2005 2002–2005
              Alabama           8        15        11        34         6        12         7        25
                Alaska         72        67        34       173        11        18         3        32
               Arizona        185       185       183       553        54        46        37       137
             Arkansas          37        48        47       132        24        31        31        86
             California       182        99       166       447       165        71       114       350
             Colorado          65        46        36       147        27        21        16        64
          Connecticut         103        23        55       181         8        23        55        86
             Delaware          11        58        49       118        10        55        45       110
 District of Columbia          27        36        53       116        27        34        51       112
                Florida       193       201       372       766       193       201       372       766
               Georgia         51        58        33       142        44        53        23       120
                Hawaii         60        75        81       216        60        75        81       216
                Illinois        9        29        84       122         9        25        62        96
               Indiana         68       204       137       409        68       204       137       409
                   Iowa        39        68        78       185        17        12        17        46
               Kansas          53        49       129       231        14        25        54        93
             Louisiana         51        78        83       212        32        36        38       106
                 Maine         64       136       114       314        31        41        50       122
             Maryland          31        27        23        81        10        10         9        29
      Massachusetts            48        25        22        95        15         4         3        22
              Michigan        379       264       216       859        81        46        30       157
            Minnesota          18        22        15        55        11        16        11        38
           Mississippi         36        33        30        99        13        16         6        35
              Missouri         32        15        20        67        32        15        20        67
              Montana          20        26        35        81        11        12        12        35
               Nevada          78        91        85       254        17        17        18        52
     New Hampshire             20        14        16        50        13         3         9        25
          New Jersey           23        35       110       168        21        29        86       136
          New Mexico           79        41        68       188        12        10        20        42
       North Carolina          90        79        90       259        80        72        84       236
                   Ohio       161       160       195       516        83        98       146       327
            Oklahoma           15        20        10        45         4        13         7        24
        Pennsylvania           36        33        33       102        36        33        33       102
        Rhode Island            2         1         3         6         2         1         3         6
      South Carolina           28        45        64       137        28        39        58       125
        South Dakota           11         9        20        40         7         4         8        19
           Tennessee           92        78       137       307        20        26        34        80
                 Texas        212       290       326       828        73        96       110       279
              Vermont          67        63        94       224        50        39        46       135
               Virginia        35        18        58       111        30        18        19        67
          Washington          164       154       170       488       164       154       170       488
        West Virginia          10        12        10        32        10        12        10        32
            Wisconsin           7         1         0         8         3         0         0         3
             Wyoming           68        14        19       101        68        14        19       101
                  Total     3,040     3,045     3,614     9,699     1,694     1,780     2,164     5,638
Source: MFCU reported data, 2006.

*The Kentucky, New York, Oregon, and Utah MFCUs responded to our request; however, the data provided was not sufficiently
complete for comparable analysis.



           OEI-07-04-00181          SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                                            13
                                                                                     Report Template Update = 04-30-05_rev.15




        Δ          A P P E N D I X                        C
                  Comparison of MFCU-Accepted Fraud Referral and Contribution Rates
                   Comparison of MFCU Accepted Referral and Contribution Rates*
                        Percentage Contribution of Accepted           Percentage of State Medicaid      Percentage of Referrals From All
                        Referrals From State Medicaid Agency           Agency Referrals Accepted            Other Sources Accepted
                 State                                  2002-2005                           2002-2005                          2002-2005
              Alabama                                          43.2                              73.1                               73.5
                Alaska                                         40.7                              14.9                               18.5
               Arizona                                         53.1                              26.3                               24.8
             Arkansas                                          24.6                              42.4                               65.2
             California                                        46.2                              77.8                               78.3
             Colorado                                          22.0                              69.2                               43.5
          Connecticut                                          27.1                              61.5                               47.5
             Delaware                                          12.0                             100.0                               93.2
 District of Columbia                                           8.9                              91.7                               96.6
                Florida                                        30.1                             100.0                              100.0
               Georgia                                         17.2                             100.0                               84.5
                Hawaii                                          3.1                             100.0                              100.0
                Illinois                                       59.8                              65.0                               78.7
               Indiana                                         15.7                             100.0                              100.0
                   Iowa                                         9.8                              35.7                               24.9
               Kansas                                          45.3                              97.5                               40.3
             Louisiana                                         41.1                             100.0                               50.0
                 Maine                                         25.2                             100.0                               38.9
             Maryland                                          34.1                              55.6                               35.8
      Massachusetts                                            56.9                              90.6                               23.2
              Michigan                                         28.0                              62.9                               18.3
            Minnesota                                          29.6                              50.0                               69.1
           Mississippi                                         41.7                              61.0                               35.4
              Missouri                                         50.4                             100.0                              100.0
              Montana                                          38.6                              81.5                               43.2
               Nevada                                          16.1                              52.6                               20.5
     New Hampshire                                             37.5                              62.5                               50.0
          New Jersey                                           24.0                              89.6                               81.0
          New Mexico                                           34.4                             100.0                               22.3
       North Carolina                                          13.2                              81.8                               91.1
                   Ohio                                        38.6                              93.6                               63.4
            Oklahoma                                           79.3                              42.8                               53.3
        Pennsylvania                                           34.6                             100.0                              100.0
        Rhode Island                                           72.7                              88.9                              100.0
      South Carolina                                           22.4                              94.7                               91.2
        South Dakota                                            5.0                               9.1                               47.5
           Tennessee                                           14.9                              30.4                               26.1
                 Texas                                         53.2                              68.0                               33.7
              Vermont                                          19.2                              86.5                               60.3
               Virginia                                        27.2                              78.1                               60.4
          Washington                                           10.1                             100.0                              100.0
        West Virginia                                          67.7                             100.0                              100.0
            Wisconsin                                          94.4                              63.0                               37.5
             Wyoming                                           19.8                             100.0                              100.0
   Total (weighted)                                            29.4                              67.8                               58.3
Source: Office of Inspector General analysis of MFCU reported data, 2006.

*The Kentucky, New York, Oregon, and Utah MFCUs responded to our request; however, the data provided was not sufficiently complete for
comparable analysis.




               OEI-07-04-00181        SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                                               14
                                                       Report Template Update = 04-30-05_rev.15




Δ   A P P E N D I X                 D

      Agency Comments




OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                            15
                                                           Report Template Update = 04-30-05_rev.15




A   P   P E N D       I X     D       





    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                16
                                                           Report Template Update = 04-30-05_rev.15




A   P   P E N D       I X     ~      B
Δ       A C K N O W L E D G M E N T S



                      This report was prepared under the direction of Brian T. Pattison,
                      Regional Inspector General for Evaluation and Inspections in the
                      Kansas City regional office, and Gina C. Maree, Deputy Regional
                      Inspector General. Other principal Office of Evaluation and Inspections
                      staff who contributed include:

                      Brian Whitley, Team Leader
                      Perry Seaton, Senior Program Analyst

                      Zula Crutchfield, Program Analyst

                      Linda Paddock, Program Analyst

                      Ayana Everett, Program Specialist

                      Elise Stein, Director, Public Health and Human Services Branch




    OEI-07-04-00181   SUSPECTED MEDICAID FRAUD REFERRALS
                                                                                                17
